No. 20-843

 

In THE
Supreme Court of the United States

New YoRK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ETAL.,
Petitioners,
vw

KEVIN P. BRUEN, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit

BRIEF OF CALIFORNIA GUN RIGHTS
FOUNDATION AS AMICUS CURIAE
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
